J. Matthew Little

Cc

Partner
Raleigh Office
mlittle@teaguecampbell.com

Teague
Campbell

November 5, 2019

VIA FEDERAL EXPRESS
Honorable Scott S. Harris
Clerk of Court
United States Supreme Court
One First Street, N.E.
Washington D.C. 20543
RE:

Dexter Edwards d/b/a Edwards Land & Cattle v. Genex Cooperative, Inc.
No. 19-526

Dear Mr. Harris:
A Petition for Writ of Certiorari in this case was filed on October 8, 2019 and placed on the
docket on October 22, 2019. The response of our client the Respondent Genex Cooperative,
Inc., is currently due on November 21, 2019.
Respondent is requesting, under Rule 30.4 of the Rules of this Court, a 7-day extension of time
up to and including November 28, 2019, to file its response to the Petition. The extension of
time is requested in light of other obligations of Respondent's counsel, including travel during
the same time period. Please note that I am not yet admitted to the Supreme Court of the
United States but submitted myapplication on October 31, 2019.
Thank you for your consideration of this request.
Yours truly,
/t,e77 .

/1/*

atthew Little
JML/chf
cc:

Dennis P. Derrick (via e-mail only)
Eugene C. Thompson, III/Kennedy L. Thompson (via e-mail only)

RALEIGH
4700 Falls of Neuse Road I Suite 450
Raleigh, NC 27609 I T 919.873.0166 I F 919.873.1814

www.teaguecampbell.com

ASHEVILLE
22 South Pac
Asheville, NC

4.4516

